Supreme Court, U.S.
FILED

NOV 1 ? 2020
OFFICE OF THE CLERK

NO. 20-

tfje

Supreme Court of tf)t Mntteb States;

ANTHONY VETRI,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Third Circuit
PETITION FOR A WRIT OF CERTIORARI

Anthony Vetri
Petitioner Pro Se
Reg# 69695-066
USP Coleman l
P.O. Box 1033
Coleman, FL 33521

January 20,2021
SUPREME COURT PRESS

♦

(888) 958-5705

♦

Boston, Massachusetts

QUESTIONS PRESENTED
1. Whether the Fourth Amendment requires more
stringent privacy considerations in authorizing a
warrant for the seizure of a cellphone and the manner
its data is search.
2. Whether the District court and court of appeals
for the third circuit erred in determining the govern­
ment met its burden to support a conviction under
the advance knowledge requirement for aiding and
abetting a murder under 924(j)(l) and 2, announced
in Rosemond v. United States, 572 U.S. 65, 134 S.Ct.
1240, 188 L.Ed.2d 248 (2014) or The Pinkerton v.
United States, under 28 U.S. 640 (1947) reasonably
foreseeable requirement.

r

11

LIST OF PROCEEDINGS
United States Court of Appeals for the Third Circuit
No. 18-2372
United States ofAmerica v. Anthony Vetri, Appellant
Date of Final Opinion: April 23, 2020
Date of Rehearing Denial: June 11, 2020

United States District Court for the Eastern District
of Pennsylvania
Criminal No. 15-157
United States ofAmerica v. Anthony Vetri, Michael
Vandergrift, Defendants
Date of Final Opinion: November 22, 2017
Date of Final Order: November 8, 2017

Ill

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED........................... ...

1

LIST OF PROCEEDINGS.......................... .......

11

TABLE OF AUTHORITIES..............................

v

PETITION FOR A WRIT OF CERTIORARI....

1

OPINIONS BELOW..........................................

1

JURISDICTION................................... ..............

1

CONSTITUTIONAL PROVISIONS..................

2

STATEMENT OF THE CASE...........................

3

REASONS FOR GRANTING THE PETITION...... 10
I.

The Fourth Amendment Requires
Heightened Scrutiny of the Probable
Cause and Particularity Requirements
in Assessing Whether Law enforcement
Is Entitled to Search Digital Storage
10
of Cellphones......
A. Background......

10

B. The Conflict......

14

II. Jury Instructions

24

CONCLUSION...... ...........

26

IV

TABLE OF CONTENTS - Continued
Page
APPENDIX TABLE OF CONTENTS
Opinions and Orders
Opinion of the United States Court of Appeals for
the Third Circuit (April 23, 2020)..................... la
Memorandum Opinion of the United States
District Court for the Eastern District of
Pennsylvania (November 22, 2017)............ . 10a
Order of the United States District Court for the
Eastern District of Pennsylvania
(November 8, 2017)........................................... 40a
Rehearing Order
Order of the United States Court of Appeals for
the Third Circuit Denying Petition for
Rehearing (June 11, 2020)............................... 42a
Other Documents
Second Superseding Indictment, Counts 1 and 6
(May 31, 2017)................................................. 44a
Jury Instruction, Relevant Excerpt..................... 53a
Application and Affidavit for Search Warrant
(June 3, 2013).................................................. 59a
Search Warrant
(June 3, 2013).................................................. 62a
Affidavit in Support of Search Warrants
(June 3, 2013)............................................. 71a

V

TABLE OF AUTHORITIES
Page
CASES
Burns v. United States,
235 A.3d 758 (D.C. Cir. 2020)........

17, 21

Carpenter v. United States,
138 S.Ct. 2206 (2018)......................

passim

Groh v. Ramirez,
540 U.S. 551, 124 S.Ct. 1284 (2004).......17, 18, 21
Katz v. United States,
389 U.S. 347 (1967)..................................

18

Maryland v. Garrison,
480 U.S. 79 (1987).....................................

18

New York v. Belton,
453 U.S. 454 (1981)....................................

23

People v. English,
52 Misc.3d 318 (NY Supreme Ct. 2016)

20

Pinkerton v. United States,
28 U.S. 640 (1947).....................................

passim

Riley v. California,
573 U.S. 373 (2014)..................................

passim

Rosemond v. United States,
572 U.S. 65, 134 S.Ct. 1240 (2014)........

i, 24

Smith v. Maryland,
442 U.S. 735, 99 S.Ct. 2577 (1979)...........

14

State v. Henderson,
289 Neb. 27l(Supreme Court of Neb 2014)......22
State v. Johnson,
576 S.W.3d 205 (Mo. App. W.D. 2019)

20

VI

TABLE OF AUTHORITIES - Continued
Page
United States v. Bishop,
910 F.3d 335 (7th Cir. 2018)......................

20

United States v. Castro,
881 F.3d 961 (6th Cir. 2018)......................

20

United States v. Christian,
2017 U.S. Dist. LEXIS 80251 affd,
737 F.App’x 165 (4th Cir. 2018)...............

16

United States v. Fisher,
2015 U.S. Dist. LEXIS 52573,
2015 WL 1862329 (D. Md. Apr. 22, 2015)

16

United States v. Griffith,
867 F.3d 1265, 432 U.S. App. D.C. 234
(D.C. Cir. 2017)...........................................

17

United States v. Grinder,
2018 U.S. Dist. LEXIS 104117
(D MD 2018)................................................

20

United States v. Jones,
565 U.S. 400, 132 S.Ct. 945 (2012)..........

13

United States v. Martinez-Fuerte,
428 U.S. 543, 96 S.Ct. 3074 (1976).........

17

United States v. Morton,
2021 U.S. App. LEXIS 195
(5th Cir. Jan 5, 2021)................................

17, 21

United States v. Stabile,
633 F.3d 219 (3d Cir. 2011)........... ..........

9, 19

United States v. Tatro,
2016 U.S. Dist. LEXIS 70583

(M.D. FL May 31, 2016).......................

16

Vll

TABLE OF AUTHORITIES - Continued
Page
United States v. Wey,
256 F.Supp.3d 355 (S.D NY June 2017)

22

United States v. Winn,
79 F.Supp.3d 904 (S.D. Ill 2015)...........

22

CONSTITUTIONAL PROVISIONS
U.S. Const, amend. IV

passim

U.S. Const, amend. V.

2,3

U.S. Const, amend. VI

2,3

STATUTES
18U.S.C. § 1341...
18 U.S.C. § 1343....
18 U.S.C. § 1344....
18 U.S.C. § 1956....
18 U.S.C. § 924(c)(1)
18 U.S.C. § 924(j)....
21 U.S.C. § 846......
26 U.S.C. § 7201...
26 U.S.C. § 7206...
28 U.S.C. § 1254(1)

5
5
5
5
24
passim
3, 6
5
5
1

1

m
PETITION FOR A WRIT OF CERTIORARI
Anthony Vetri, Pro Se, respectfully petitions for
a writ of certiorari to review the judgment of the
United States Court of Appeals for the Third Circuit,
in case No. 18-2372

OPINIONS BELOW
The non-precedential opinion of the court of
appeals is reported at United States v. Vetri, 811
F.App’x 79 (3d Cir. 2020) (App.la). The memorandum
opinion of the district court is reported at Urdted States
v. Vetri, No. 15-157-2, 2018 WL 8950729 (E D. Pa. May
30, 2018) (App.40a)

JURISDICTION
The judgment of the court of appeals was entered
on April 23, 2020. A petition for rehearing was denied
June 11, 2020. The jurisdiction of this Court is invoked
under 28 U.S.C. § 1254(l).

2

CONSTITUTIONAL PROVISIONS
U.S. Const., amend. IV
The right of the people to be secure in their
persons, houses, papers, and effects, against
unreasonable searches and seizures, shall not be
violated, and no Warrants shall issue, but upon
probable cause, supported by Oath or affirmation,
and particularly describing the place to be
searched, and the persons or things to be seized.
U.S. Const., amend. V
No person shall be held to answer for a capital,
or otherwise infamous crime, unless on a pre­
sentment or indictment of a Grand Jury, except
in cases arising in the land or naval forces, or in
the Militia, when in actual service in time of
War or public danger; nor shall any person be
subject for the same offence to be twice put in
jeopardy of life or limb; nor shall be compelled in
any criminal case to be a witness against him­
self, nor be deprived of life, liberty, or property,
without due process of law; nor shall private
property be taken for public use, without just
compensation.
U.S. Const., amend. VI
In all criminal prosecutions, the accused shall
enjoy the right to a speedy and public trial, by
an impartial jury of the State and district
wherein the crime shall have been committed ....

3

STATEMENT OF THE CASE
Petitioner Anthony Vetri’s criminal convictions
was founded on evidence taken in an unconstitutional
search of his iPhone. And it followed a trial where
the government failed to meet its required burden
under the two vicarious criminal liabilities submitted
to the jury: aiding and abetting (18 U.S.C. Section 2(a)),
and Pinkerton v. United States, 328 U.S. 640 (1946).
This petition calls upon this Court to hold the
government to its obligations under the Fourth, Fifth
and Sixth Amendments and vacate Mr. Vetri’s
conviction.
Following a jury trial in the United States
District Court for the Eastern District of Pennsylvania,
petitioner was convicted of aiding and abetting a
murder, in the course of using and carrying a firearm
in relation to a drug trafficking offense, in violation
of 18 U.S.C. §§ 924(j)(l), 2 and conspiracy to distribute
30 mg oxycodone tablets, in violation of 21 U.S.C.
§ 846. He was sentenced to a term of life imprisonment
and a consecutive term of 240 months.
1. In or about April 2012, agent Charles F. Doerrer of the ATF was assigned to a multi-agency
taskforce to assist with the investigation into petitioner.
(App.72-73a). On June 3, 2013, he applied for a
search warrant submitting an affidavit to a Magistrate
Judge for authorization to search petitioner’s residence
at 403 Marsden Avenue. (App.59a). Outlined within
the affidavit, agent Doerrer details a lengthy investiga­
tion of various individuals in the Delaware County
and Philadelphia areas, who authorities had reason

4

to believe was engaged in a conspiracy to illegally
distribute 30 mg Oxycodone tablets, insurance/wire/
bank fraud and filing false tax returns. According to
agent Doerrer, in early or mid-2009 to late 2011 or
January 2012, petitioner was receiving large sums of
Oxycodone tablet from pharmacy owner or operator
Mitesh Patel and distributing them through Angelo
Perone and eventually Michael Vandergrift. (App.74a,
79a).
Agent Doerrer also believed petitioner filed at least
three false insurance claims that resulted in insurance
companies sending him reimbursement checks, via
U.S. mail, from 2009 until 2012. (App.85-86a). He
further explained because the proceeds petitioner
allegedly made from the Oxycodone conspiracy and the
false insurance claims was not declared on his income
tax filings in 2009, 2010 and 2011, and because records
indicated petitioner’s lawful companies and bank
accounts was registered to his home, there was
probable cause to believe that evidence of the tax viola­
tions and false insurance claims was being stored
within petitioner’s residence. (App.86a, 100-101a).
Accordingly, agent Doerrer concluded “in order to
determine his true tax liability and scope of the
frauds, and identify all sources and all amounts of
any unreported income and proceeds of fraud schemes,
agents [would] need to reconstruct [petitioner’s] federal
income tax returns, as set forth in Attachment B
showing income or expenses are relevant to the
investigation and evidence of the criminal schemes.”
(App.l03a). The evidence sought to be seized related
almost exclusively to documentary evidence of financial

5

crimes.l The Magistrate subsequently authorized the
warrant to search for evidence at petitioner’s residence
“concerning a violation of Title 26, United States
Code, Section(s) 7201 and 7206(l); Title 18, United
States Code, Sections 1341, 1343, 1344, and 1956.”
id. (App.60a) {emphasis added).
On June 4, 2013, the federal task force executed
the warrant on petitioner’s residence. Among other
things not relevant to this petition, agents seized 7
(seven) smartphones, in which they used software to
extract and then search all digital data therein. In
one of the smartphones, agents found a video Petitioner
recorded of his two-year-old daughter, which was
approximately 1 minute 43 seconds in length. 1 minute
10 seconds into the video, it could be heard petitioner
asking his daughter “what did the gangsters do to Bo?”2
in which she replied “Boom, Boom, Boom, Boom.” (App.
22a). No charges were filed on petitioner for the
1 Agent Doerrer explained that based on his training and expe­
rience in participating in financial investigations involving
unreported income and narcotics traffickers, he specifically knew
it was common for individuals to utilize electronic equipment
such “as computers, telex machines, facsimile machines, currency
counting machines, telephone answering machines and pagers
to generate, transfer, count, record and/or store the information
described above. (App.96-98a). As explained further through
this petition, this list did not include cellphones.
2 “Bo,” the nickname of Mitesh Patel partner Gbolahan Olabode
and an alleged member of the Oxycodone conspiracy, was murdered
in January of 2012. While the agent Doerrer was a member of
the federal task force investigating Bo’s murder, he did not
submit any facts in the affidavit related to Bo’s murder, that
authorities were investigating petitioner as a person of interest
or that they was looking for evidence petitioner was in anyway
involved in his murder.

6

offenses outlined in agent Doerrer affidavit, however,
approximately Four years later, Petitioner was arrested
in connection with Bo’s murder and conspiracy to dis­
tribute Oxycodone.
2. Petitioner was charged with conspiracy to dis­
tribute Oxycodone tablets, in violation of 21 U.S.C.
§ 846 and aiding and abetting a murder, in the course
of using and carrying a firearm in relation to a drug
trafficking offense, in violation of 18 U.S.C. § 924(j)(l)
& 2. (App.47-48a, 51-52a). He moved to suppress the
video evidence being admitted at trial, arguing the
inclusion of the cellphones in the warrant was not
supported by probable cause and the warrant itself
was overbroad. 3 The government opposed Petitioner’s
motion.
Following a hearing, the district court ordered
supplemental briefing “on the issue of whether the
search of [petitioner’s] cell phone was impermissibly
broad in light of the scope of the warrant and the
evidence to be seized.” The court narrowed the question
to “the parameters of the search conducted of the cell
phone and evidence seized as a result thereof.”
(App.40a). Petitioner’s supplemental brief focused on
emphasizing attachment B of the warrant was invalid
to the extent of the cellphones. Asserting the develop­
ment of case law on searches of digital content in cell­
phones, including Riley v. California, 573 U.S. 373
(2014), petitioner argued warrants that include cell­
phones demanded heightened scrutiny under the
Fourth Amendment and could not rely on facts that
3 The only mention of cellphones in the warrant was in attachment
B(c), which authorized seizures of “Cellular Telephones (including
searching the memory thereof).” (App.57a-at 3)

7

supported probable cause, or satisfied the particularity
requirements to other items translated into probable
cause or could meet the particularity requirement as
to allow the search of cellphone contents. (App.3233a). The government responded contending, in its
view, a cell phone “is not really much more than a
filing cabinet for digital information,” and thus the
agents were permitted to search the cell phone for
records as if it were simply a filing cabinet in
[petitioner’s] home,” and further, even though the
affidavit failed to include any facts pertaining to cell­
phones, there was nine “communications” referenced
in the affidavit that “would at least imply that there
had been telephone calls or some communications of
some sort from [petitioner] to other people” which
was enough to establish probable cause to search
petitioner’s cellphones.4 (App.32a).
At the conclusion of another hearing, the district
court denied the motion. While there was no mentioning
of petitioner owning, using or otherwise linking a
cellphone to the offenses described in the affidavit,
the district court nevertheless reasoned; given “the
type of records and documents which agents sought,
and the common knowledge about the functions and
the abilities of modern day cellphones, [the Magistrate]
had substantial basis for including cellphones in the
warrant.” (App.34a). Petitioner proceeded to trial where
the government showed the video to the jury five times,
including opening statements, during the presentation
of witness testimony and again in its closing arguments.
The jury returned a verdict of guilty on both counts.
4 In its original briefing, the government did not address this
issue, therefore, its view was articulated pursuant to the court’s
November 8, 2017, supplemental briefing order. See App.40-41a.

8

3. On appeal, among other things, petitioner
challenged the district court denial of the video
evidence being suppressed and that the government
failing to meet its burden he either had advance
knowledge his Co-conspirator would use a firearm in
the murder, or it could be reasonably foreseeable to
him a firearm would be used in the murder. The panel
affirmed on both challenges. In its opinion, the panel
noted “it [was] perplexing that the body of the affi­
davit did not mention cellphones.” (App.4a). However,
it went on to hold “probable caused existed because
the totality of the circumstances suggested there was
a fair probability that contraband or evidence of a
crime would be found in [Petitioner’s] cell phones.”
id.
The panel’s opinion did not address whether the
warrant could be constitutionally valid in authorizing
the seizure and search of petitioner’s cellphone when
no mention of the cellphones was in the affidavit.
Rather, the panel determined that the “qualifier” into
the question whether there was probable cause was
found in the list of electronics agent Doerrer described
in the affidavit as often used by drug traffickers was
“merely illustrative of the kinds of electronic equip­
ment drug traffickers might use” to hide evidence of
their trafficking, id. While this list, or nowhere else
in the affidavit mentioned cellphones being used or
connected to the offenses, the panel nevertheless
reasoned “cell phones are plainly among that boarder
category of electronic equipment” drug dealers might
use to hide evidence, id.
The panel also rejected Petitioner’s challenge that
the district court ruling denying suppression should
have been reversed based on evidence in the video

9
not being in plain view, as the agents virtually watched
the whole recording to reach the incriminating evi­
dence. The panel held under Circuit precedent; it
was permissible for the agents to play the video “to
view its contents as a thorough . . . search requires a
broad examination of files on the [cellphone] to
ensure that filets] . . . have not been manipulated to
conceal their contentsS,” citing United States v. Stabile,
633 F.3d 219, 241 (3d Cir. 2011). id The panel
further rejected petitioner’s challenge that the evidence
was sufficient to establish he had advance knowledge,
or reasonable foreseeability, his co-defendant would
use a firearm to commit the murder, in furtherance
of a drug trafficking offense. The full court subsequently
denied petition for en banc review. Petitioner Now
submits his petition Pro Se to this Court for relief.

5 While the relevant portion of the video recording where “Bo”
was referred to by petitioner and his daughter occurred well
over a minute into the recording, The panel decision to hold the
plain view doctrine applied was not explained as the evidence
was not “immediately apparent” when opening the video.

10

REASONS FOR GRANTING THE PETITION
I.

The Fourth Amendment Requires Heightened
Scrutiny of the Probable Cause and Particu­
larity Requirements in Assessing Whether Law
ENFORCEMENT IS ENTITLED TO SEARCH DIGITAL

Storage of Cellphones
A. Background
This petition presents this Court with the oppor­
tunity to consider an important issue; whether modern
smartphones requires more stringent privacy protec­
tions under the Fourth Amendment then that of
physical searches which this Court has tailored the
warrant requirements to regulate. Federal courts of
appeals and state courts of last resort are openly and
intractably divided on the proper application of the
probable cause and particularity requirements applied
to the digital content stored in cellphones. This issue
is manifestly significant. It also has had more than
sufficient time to percolate. Given the fact virtually
every American uses smartphones and the unique
privacy interest digital content implicates, this Court
should use this case—which presents the issue in the
context of a modern smartphone and a particularly
comprehensive fact pattern—to resolve the growing
conflict and set clear precedent to account for the
continuing evolution of digital storage in smartphones
and the heightened privacy interest implicated in
Riley.
Specifically, this petition involves a warrant that
authorized the search of a residence for financial docu-

11

ments. While the affidavit supported probable cause
for the documents and other material in the house
related to financial crimes outlined in the affidavit,
there was no mention of cellphones or facts attesting
that authorities had reason to believe petitioner cell­
phones held evidence or was used to facilitate a crime;
whether, under the Fourth Amendment, such a warrant
could authorize the search of the cellphones digital
content when the affidavit failed to attest to any
facts to support probable cause as to the extent of the
phone digital contents and further failed to described
with particularity what specific cellphones agents
were authorized to seize or specific areas in its con­
tent were authorized to be searched.
1. This Court has established digital data obtained
from cellphones creates unique privacy interest which
falls squarely in the purview of the Fourth Amendment.
When presented with questions of whether prior
precedent was sufficient to ensure the technological
advancements of cellphones were protected by the
constitutional mandate, this Court decisions in those
inquiries indicated such searches should be afforded
different considerations than any physical searches
given the significant storage compacity and nature of
sensitive information that was categorically stored in
cellphones. In each instance, prior precedent was
determined to be inapplicable to allow exceptions to the
warrant requirement and the Court implied heightened
scrutiny of warrants would be required to ensure the
reasonableness of the government intrusions into a
citizen privacy by searching digital data.
For example, in Riley v. California, 573 U.S. 373
(2014), this Court held that the government must seek
a warrant to search cell phones that were seized

12

incident to an arrest. In so doing, the Court described
the unique nature of cell phones in the modern era
and distinguished them from other objects that are
traditionally the subject of a search incident to arrest.
The Chief Justice Roberts explained for the unanimous
Court in Riley, “Cellphones differ in both a quantitative
and a qualitative sense from other objects . . . The
term ‘cell phone’ is itself misleading shorthand; many
of these devices are in fact minicomputers that also
happen to have the capacity to be used as a tele­
phone. They could just as easily be Called cameras,
video players, rolodexes, calendars, tape recorders,
libraries, diaries, albums, televisions, maps, or news­
papers ...” He further elaborated on the immense
storage capacity of a cell phone, and acknowledged
several consequences for privacy interests: “First, a
cell phone collects in one place many distinct types of
information—an address, a note, a prescription, a
bank statement, a video—that reveal much more in
combination than any isolated record. Second, a cell
phone’s capacity allows even just one type of informa­
tion to convey far more than previously possible. The
sum of an individual’s private life can be reconstructed
through a thousand photographs labeled with dates,
locations, and descriptions; the same cannot be said
of a photograph or two of loved ones tucked into a
wallet. Third, the data on a phone can date back to
the purchase of the phone, or even earlier.” id. at
394.
In addition, Chief Justice Roberts recognized
how a cell phones can store internet browsing history,
cell location information, and applications that store
data in the cloud and not just on the physical device
itself, id. at 395-96. In cautioning courts about the

13

breadth of private data available on a phone, he
made this relevant observation: “Indeed, a cell phone
search would typically expose to the government far
more than the most exhaustive search of a house:
A phone not only contains in digital form many
sensitive records previously found in the home: it
also contains a broad array of private information
never found in a home in any form—unless the
phone is.” Id. at 396-97. (Emphasis added). The court
in Riley recognized a phone’s ability to categorically
store personal and highly sensitive information and
that such a device creates privacy interests even
greater than a citizen’s home, which indicated a need
for stronger protections under the Fourth Amend­
ment.
Subsequently, in Carpenter v. United States, 138
S.Ct. 2206, 201 L.Ed.2d 507 (2018), when the Court
was tasked with determining whether the Fourth
Amendment required a warrant to seize CSLI records,
it held that the third-party doctrine was inapplicable,
and a warrant was in fact required as location records
“[held] for many Americans the ‘privacies of life.” id.
at 2217-18 (quoting Riley, 573 U.S., at
, 134 S.Ct.
2473, 189 L.Ed.2d 430, 452). The Court explained the
history of Fourth Amendment jurisprudence cautioned
inquiries into data derived from cellphones should be
“focused on whether the government ‘obtains infor­
mation by physically intruding on a constitutionally
protected area ... ’’’id. at 2213 (Quoting United States
v. Jones, 565 U.S. 400, 405, 406, n.3, 132 S.Ct. 945,
181 L.Ed.2d 911 (2012) (emphasis added). Moreover,
Carpenter further emphasizes heightened scrutiny
should be applied to every category of data derived
from a cellphone data would be the only way to

14
sufficiently ensure adequate Fourth Amendment
protection Jurisprudence demonstrates when indi­
viduals “seeks to preserve something as private,” and
his expectation of privacy is “one that society is pre­
pared to recognize as reasonable. This Court [has
consistently] held that official intrusion into that
private sphere generally qualifies as a search and
requires a warrant supported bv probable cause” ibid.
(Quoting Smith v. Maryland' 442 U.S. 735, 740, 99
S.Ct. 2577, 61 L.Ed.2d 220) (emphasis added). Riley
and Carpenter makes apparent that permitting a
search of all content on a cellphone is materially dis­
tinguishable from any other type of search tradi­
tionally presented to this Court. It also indicates
probable cause should be required to search each cate­
gory of information within a phone and that those
areas searched must be particularly described and
linked to the probable cause supporting the search
within the affidavit to meet the Fourth Amendment
requirements.
B. The Conflict
There is a critical struggle by the lower courts to
apply the probable cause and particularity require­
ments to the unique technological capabilities of
cellphones. Because these issues was not directly
addressed in Riley, Carpenter or any subsequent
cases from this Court, an important question remains
open that must be addressed; how law enforcement
warrants to search digital content must be tailored to
ensure the Fourth Amendment warrant requirements
comport with the unique evolution of digital data in
cellphones. The instant petition provides an illustra­
tion of that struggle and demonstrates a clear need
for the Court to address these issues. Under current

15

law in the third circuit and various other courts, an
affidavit that fails to include facts about a cellphone
being linked to or otherwise suspected of holding
evidence of a crime does not necessarily preclude
authorization of a warrant to search the phone digital
content.
1. The third circuit has taken the position that
probable cause to search a cellphone can exist, even
if there is no phone mentioned in the affidavit, on the
basis the “totality of [other] circumstances suggest
that contraband or evidence of a crime would be
found in a cellphone.” (App.4a). For instance, in the
affidavit in the instant petition, agent Doerrer did
not mention petitioner owned or used a cellphone to
facilitate any criminal conduct, nor that authorities
had reason to believe evidence of an offense would be
hidden within its digital contents. There was also
nothing included in the affidavit that indicate anyone
seen or heard petitioner use a cellphone during the
relevant period. Further, when asserting his expert
opinion based on his training and experience in
financial and drug investigations, agent Doerrer listed
various places, electronics and methods used by
criminals to hide evidence of crimes, however, he did
not include cellphones as a part of that list. See
App.l05-08a. In fact, agent Doerrer fails to mention
cellphones in the affidavit completely. The only mention
of cellphones in this matter is in the attachment B of
the warrant that details items which was to be seized.
There were simply no facts set forth that could
support the search of all cellphones in petitioner
residence. Critically, the panel noted this in its opin­
ion stating “it [was] perplexing that the body of the
affidavit did not mention cellphones.” but it neverthe-

16

less determined probable cause existed based on
totality of [other] circumstances suggest that contra­
band or evidence of a crime would be found in a cell­
phone,” when not one fact supporting such is attested
to in the affidavit.
Other courts have taken similar views as the
third circuit or have found that probable cause existed
to justify the issuance of a search warrant to search
all contents within a cellphone based solely on law
enforcement experience or that cell phones found near
illegal activity are highly likely to contain incrimin­
ating evidence, e.g. United States v. Tatro, 2016 U.S.
Dist. LEXIS 70583 (M.D. FL May 31, 2016) (denying
suppression even though the affidavit or warrant didn’t
mention cellphones, finding pocket computers covered
cellphones); United States v. Christian, 2017 U.S.
Dist. LEXIS 80251 at *9, affd, 737 F.App’x 165 (4th
Cir. 2018) (holding sufficient nexus can exist between
a defendant’s criminal conduct and the cellphone even
when the affidavit supporting the warrant contains
no factual assertions other than based on a agents
training and experience that drug dealers use cell
phones) United States v. Fisher, 2015 U.S. Dist.
LEXIS 52573, 2015 WL 1862329 (D. Md. Apr. 22,
2015), (finding probable cause to search a cell phone
found in a car where drugs were also found, because
“cell phones . . . are acknowledged tools of drug traf­
fickers”).6 As with the third circuit, these cases

6 Any information attested to in the affidavit related to drugs
involving petitioner was stale; Agent Doerrer stated the last
known activity was in late 2011, January 2012. The warrant in
the instant case was applied and approved on June 3, 2013, no
less than 18 months After known drug activity.

17

illustrate courts are not properly considering the
heightened scrutiny digital data of cellphones entails.
However, The text of the Fourth Amendment is
clear when it commands “no Warrants shall issue,
but upon probable cause, supported bv Oath or affir­
mation.” This “Court usually requires ‘some quantum
of individualized suspicion’ before a search or seizure
may take place,” to ensure the warrant requirement
is met id. Carpenter at 222l(citing United States v.
_Martinez-F.uerte,-A28-JJ..B_543, 560-61,-96 S.Ct.3074, 49 L.Ed.2d 1116 (1976)). Several lower Court
are correctly analyzing probable cause inquiries of
cellphone content under stricter scrutiny according to
• this principle, e.g. United States v. Morton, 2021
U.S. App. LEXIS 195, at *6-8. (5th Cir. Jan 5, 2021)
(due to cellphones holding many distinct types of
information, facts must be submitted to support
probable cause to search for and seize evidence in
each area within the contents of a cellphone); United
States v. Griffith, 867 F.3d 1265, 432 U.S. App. D.C.
234 (D.C. Cir. 2017) (held warrant unsupported by
probable cause as affidavit offered no basis to suspect
that defendant own a cellphone or that any phone
containing incriminating information would be found
in the phone digital contents); Burns v. United States,
235 A.3d 758, 772 (D.C. Cir. 2020) (quoting Groh v.
Ramirez, 540 U.S. 551, 568, 124 S.Ct. 1284, 157 L.Ed.
2d 1068 (2004) (affidavit must demonstrate cause to
believe not only that an item of evidence is likely to
be found at the place to be searched, but also that
there is a nexus between the item to be seized and
[the] criminal behavior under investigation)); The
inquiry into probable cause into these cases ade­
quately reflect the uniqueness of digital data stored

18

in a cellphone and ensures each item sought by law
enforcement is not only link to the facts outlined in
the affidavit, but also limit searches to specific
category of information thus barring exploratory
searches.
2. Likewise, with the particularity requirement,
this Court has long ago established [t]he manifest
purpose was to prevent general searches. By limiting
the authorization to search to the specific areas and
things for which there is probable cause to search,
the Court has explained the requirement ensures that
the search will be carefully tailored to its justifica­
tions, and will not take on the character of the wideranging exploratory searches the Framers intended
to prohibit. Maryland v. Garrison, 480 U.S. 79, 84
(1987). This Court has made clear in order to comply
with the particularity requirement, the warrant must
contain two sets of precise descriptions. Groh v.
Ramirez, 540 U.S. 551(2004); describe the place to be
searched with enough detail to allow the police to
recognize the location with relative ease. Garrison,
480 U.S. at 88-89 (holding the police made “reasonable
effort to ascertain and identify” the place to be
searched); and it must also describe the persons or
things to be seized in order to limit where the police can
look and for how long they can look. Katz v. United
States, 389 U.S. 347, 353 (1967) (stating the Fourth
Amendment’s protections extend beyond physical intru­
sions onto property and protect people from secret
government wiretapping). These dual demands of
particularity ensure that the police establish the proper
location for their search and have clear objectives
and parameters in mind during in its execution.

19
The third circuit and other courts have taken
views which fail to give the proper consideration to
these factors based on Riley, and demonstrates a
departure from the scrutiny the particularity
requirement commands on digital data in cellphones.
In this case, the affidavit concluded investigators
sought authorization to search for financial documents
to assist with the reconstruction of petitioner’s financial
background for possible tax violations. Agent Doerrer
did not submit any facts such documents or related
material would be found in a cellphone, much less a
video recording of petitioner joking around with his
daughter. 7 Further, the warrant did not identify any
specific cellphone. Rather, it stated that “cellular
telephones (including searching the memory thereof)”
(App.66a) was authorized. A warrant authorizing the
seizure of financial documents should be limited to
such. Under this warrant, according to the third
circuit view, it authorized the seizure of every phone
in petitioner residence, allowed agents to search
every file and application within their contents and
7 While agent Doerrer outlined various offenses that petitioner
was allegedly involved in, he did not mentioned the investigation
into Bo’s murder, even though he was assigned to the taskforce
that was investigating the offense and stated Bo was a part of
the pill distribution conspiracy within the affidavit. While this
issue is not before this Court, petitioner emphases this fact to
illustrate one of the consequences resulting from the particularity
requirement not being correctly enforced. Third Circuit has
extended its precedent which authorizes law enforcement to
examine all files in computers to ensure they are not mislabeled
in effort to hide evidence of a crime to cover cellphones and
necessarily violates the particularity requirement. United States
v. Stabile, 633 F.3d 219, 241 (3d Cir. 2011). This allows the
government to view digital content outside of the scope of the
warrant.

f

20

seize items that was in no way related to the
financial documents outlined within the affidavit. A
video of a father and daughter joking has no Nexis to
financial offenses agents was authorized to search
for, which is demonstrably outside the warrant. Several
other courts have adopted the third circuit approach
which allowed the government various latitudes to
search every category of data in a cellphone. See
United States v. Bishop, 910 F.3d 335, 336 (7th Cir.
2018) (warrant authorizing the search of all files and
applications for evidence of criminal recklessness
with a deadly weapon held to meet particularity
requirement although no probable cause supported
such wide ranging search into files or applications
that authorities could not gain such evidence); United
States v. Castro, 881 F.3d 961 (6th Cir. 2018) (allowing
all files searched and explains evidence not described
in a search warrant may be seized if it is reasonably
related to the offense which formed the basis for the
search warrant”); State v. Johnson, 576 S.W.3d 205,
222-23 (Miss. State App. court 2019) (adopting Bishop/
Castro in holding particularity requirement in a
warrant authorizing the search of all data or all files
in a cell phone is met so long as the warrant con­
strains the search to evidence of a specific crime,
even if probable cause to search all data is lacking);
People v. Enghsh, 52 Misc.3d 318, 223-23 (NY Supreme
Ct. 2016) (same); United States v. Grinder, 2018 U.S.
Dist. LEXIS 104117 (D MD 2018) (Although items to
be seized under a search warrant should be described,
the item’s description can rely on its relationship to
specific crimes detailed in the complaint). These
cases represent a large number of courts that have
lowered the required standard of mandating law

21
enforcement be limited in their searches of digital
content.
The recognition of the protections being extended
to cellphones data in Riley and Carpenter indicates
probable cause and the particularity requirement
requires more stringent enforcement with a warrant
seeking the authorization to search digital contents
of a cellphone. The importance of ensuring law enforce­
ment remain within the parameters of digital data
authorized by probable cause is embodied within the
particularity requirement. Therefore, under the correct
reading of Riley, facially broad warrants authorizing
the review of the entirety of a cell phone’s data should
be unconstitutional just as this Court has rejected the
authorization of board warrants for searches of citizens
houses. See Riley II, 134 S.Ct. at 2494-95 (comparing
the protections cell phones should receive to the
protections homes receive); e.g. Groh v. Ramirez, 540
U.S. 551, 557 (2004) (holding a facially broad search
warrant for a home violated the particularity require­
ment). And it also necessarily follows requiring the
cellphone(s) that is targeted for seizure be specifically
identified as well as each item within its contents to
seized, and area searched in the cellphone is linked
to the offenses under investigation detailed within
the affidavit supporting the warrant authorization.
The lower state and federal courts that has
followed these principles and properly considered the
implications in Riley and Carpenter are demonstrably
in conflict with third circuit and other courts cited
above, e.g. Morton, 2021 U.S. App. LEXIS 195, at *69 (Riley made clear that distinct types of information,
often stored in different components of the phone,
should be analyzed separately); Burns, 235 A.3d at

22

(“It is not enough for police to show there is probable
cause to arrest the owner or user of the cell phone, or
even to establish probable cause to believe the phone
contains some evidence of a crime. To be compliant
with the Fourth Amendment, the warrant must
specify the particular items of evidence to be searched
for and seized from the phone and be strictly limited
to the time period and information or other data for
which probable cause has been properly established
through the facts and circumstances set forth under
oath in the warrant’s supporting affidavit. Vigilance
in enforcing the probable cause and particularity
requirements is thus essential to the protection of
the vital privacy interests inherent in virtually every
modern cellphone and to the achievement of the
“meaningful constraints” contemplated in Riley*’)
(emphasis added); United States v. Wey, 256 F.Supp.3d
355, 383 (S.D NY June 2017) (the Government, once
it has obtained authorization to search a [cellphone],
may in theory “claim that the contents of every file it
chose to open were in plain view and, therefore,
admissible even if they implicate the defendant in a
crime not contemplated by the warrant,” thus pre­
senting a “‘serious risk that every warrant for electronic
information will become, in effect, a general warrant,
rendering the Fourth Amendment irrelevant.”); United
States v. Winn, 79 F.Supp.3d 904, 919 (S.D. Ill. 2015)
(“[RilejA put the scope of such a wholesale seizure in
perspective by explaining that it “would typically ex­
pose the government to far more than the most ex­
haustive search of a house.”); State v. Henderson,
289 Neb. 271, 290-91 (Supreme Court of Neb 2014)
(“Given the privacy interests at stake in a search of
a cell phone as acknowledged by the Court in Riley
.. . we think that the Fourth Amendment’s particular-

23

ity requirement must be respected in connection with
the breadth of a permissible search of the contents of
a cell phone”).
As demonstrated above, the division of the lower
courts on these issues has caused uncertainty for
citizen, the judiciary and law enforcement alike. Given
the large number of Americans that uses cellphones,
the frequent need of law enforcement to search the
content of cellphones and the lower courts obligation
to ensure the constitutional protections of citizens are
maintained, this court intervention is critical. With
so many courts around the Country divided on these
issues, the basis Fourth Amendment protections for
cellphones now depends on what jurisdictional lines
you may cross. See New York v. Belton, 453 U.S. 454,
459-60 (1981) (“[wjhen a person cannot know how a
court will apply a settled principle to a recurring
factual situation, that person cannot know the scope
of his constitutional protection, nor can a policeman
know the scope of his authority.”). Since Riley, the
issues have reached its zenith and further percola­
tion would not aid this Court’s consideration of the
issue. There is no good reason to delay resolution of
the question presented in the hopes that additional
lower court opinions will unearth new legal theories
or converge on a uniform legal regime. Numerous
federal and state courts of last resort have issued
countless decisions with conflicting views since Riley
further deepening the divide and inconsistency.
The panel in this case was incorrect in affirming
the denial of petitioner’s motion to suppress the video
evidence taken from the cellphone. Agents did not
establish probable cause to search within petitioner’s
cellphone, let alone video files, and further, the warrant

24
lacked particularity to the extent of cellphones, a
requirement guaranteed by the constitution. Allowing
the video to be admitted into petitioner has cause pre­
judice to both counts which is likely to have affected
the jury determination. Under the constitution, law
enforcement is not allowed to search any property
that a citizen has a reasonable expectation to privacy
to without meeting the warrant requirements, which
was not done in this case. The video, while tasteless,
did not provide evidence to satisfy elements of either
counts charged in the indictment. Rather, it was
used by the government for its prejudicial impact.
Petitioner, who has never been arrested prior to the
instant offense, was deprived of his constitutional
right to a fair trial by the trial court’s error allowing
the video to be seen by the jury and the third circuit
further erred by affirming that decision. Various courts
are similarly affording law enforcement great latitude
with investigative tactics which infringes on the
constitution protections that are guaranteed. This
Court should use this case to hold the government to
its constitutional obligations and clarify these issues
for the lower court.

II. Jury Instructions
This petition also calls on this Court to address
the whether the district and Circuit erred in determine
the government met its burden to support a conviction
under the advance knowledge requirement for aiding
and abetting a murder 924(j)(l) and 2, announced
in Rosemond v. United States, 572 U.S. 65, 134 S.Ct.
1240, 188 L.Ed.2d 248 (2014) or The Pinkerton reason­
ably foreseeable requirement. Count Six charged Vetri
and Vandergrift under 18 U.S.C.§ 924(j)(l) with using
firearms, contrary to 18 U.S.C. § 924(c)(1), during and

25

in relation to the conspiracy to distribute a controlled
substance, and in the course of that violation causing
the death of a person under circumstances making the
killing a murder. The government had to prove beyond
a reasonable doubt that Petitioner either had advance
knowledge that Vandergrift would use a firearm to
commit the murder, under the aiding and abetting
theory, or, at the very least, that Vandergrift’s use of
a firearm to commit murder was reasonably foreseeable
to Petitioner within the scope and in furtherance of
the drug conspiracy under the Pinkerton theory.
The district court erred instructing the jury that
it could convict petitioner under Pinkerton if it found
that it was reasonably foreseeable, he aided and abet­
ted Mangold using a firearm to murder Bo. This was
a reversal error as Mangold was not a principle or
otherwise a member of the underline drug conspiracy a
requirement.
In its final jury instruction on the murder count,
the district court allowed a conviction of Petitioner
based only on Petitioner’s knowledge or foreseeability
with respect to Vandergrift’s use of the firearm, not
Mangold’s. The court expressly told the jury that
Vandergrift was the principal whom Petitioner was
charged with aiding and abetting while using and
carrying a firearm as charged in the Indictment.
There was no evidence admitted at trial to support
Petitioner had advance knowledge or reasonably fore­
seeability Vandergrift would use a firearm in the
offense and the indictment didn’t alleged nor did the
government argue at trial Mangold was charged in
the 924(j)(l) count, a requirement needed for him to
be a principle. The Court did not instruct petitioner
could be liable for violating 924(j) on the alternative

26

theory that Mangold and Petitioner conspired to commit
some offense making it reasonably foreseeable that
Mangold would use a firearm to commit murder in
furtherance of that conspiracy, a requirement under
Pinkerton.

CONCLUSION
For the foregoing reasons, this Court should Grant
the writ certiorari to address to two important issues.
Respectfully submitted,
Anthony Vetri
Petitioner Pro Se
REG #69695-066
USP Coleman l
P.O. Box 1033
Coleman, FL 33521

January 20,2021

Blank Page

